U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                   PUBLIC
                  RELEASE


        NATIONAL INSTITUTE OF
   STANDARDS AND TECHNOLOGY
 External Reviewers Help With ATP Focused
Program Selection Process, But Key Steps In
The Selection Process Were Not Documented
            Audit Report No. STD-11113-0-0001/March 2000




     Office of Audits, Science and Technology Audits Division
March 30, 2000

MEMORANDUM FOR:              Raymond G. Kammer
                             Director, National Institute of
                               Standards and Technology

FROM:                        Johnnie E. Frazier

SUBJECT:                     External Reviewers Help with ATP Focused
                              Program Selection Process, but Key Steps in the
                              Selection Process were not Documented
                             Audit Report No. STD-11113-0-0001

We have completed our audit of the Advanced Technology Program’s (ATP) focused program
selection process. The audit determined that ATP uses external reviewers to help evaluate
proposed focused programs. Also, ATP has established criteria for evaluating and selecting
technology areas for focused competitions from those ideas submitted by industry, but key steps
in the ATP focused program selection process were not documented. As a result, we were
unable to determine whether the focused programs were selected based on ATP criteria. We
believe that if ATP returns to focused program competitions, its focused program selection
process should be better documented.

In response to our draft report, NIST generally disagreed with two of our recommendations for
improving the ATP focused program selection process. NIST did not respond to our third
recommendation that the ATP Director should document her justification for selecting a focused
program. In addition, although NIST provided revised funding amounts for inclusion in the
“General vs. Focused Competitions” chart on page 3, NIST did not provide documentation to
support the revised amount. Therefore, we incorporated NIST’s comments, but did not modify
the chart. NIST’s complete comments to our draft report are included as Appendix II and are
summarized within the report. We reaffirm the need to implement each of our recommendations.

Please provide your audit action plan addressing the recommendations within 60 days, in
accordance with Department Administrative Order 213-5. The plan should be in the format
specified in Exhibit 7 of the DAO. Should you have any questions regarding the preparation of
the audit action plan, please call me at (202) 482-4661 or contact Mary Casey, Acting Assistant
Inspector General for Auditing at (202) 482-1934 or Ronald Lieberman, Director, Science and
Technology Audits Division, at (301) 713-2070. We appreciate the cooperation and courtesies
extended to us by ATP personnel during the audit.

INTRODUCTION

ATP was created by the Omnibus Trade and Competitiveness Act of 1988 to improve the
nation’s competitiveness and economy by investing, with industry, in high risk technologies
that are broadly enabling, have high payoff potential, and which might be ignored or developed
too slowly to effectively compete in the rapidly changing world markets. ATP’s cost-sharing
U.S. Department of Commerce                                     Audit Report No. STD-11113-0-0001
Office of Inspector General                                                            March 2000

investments are intended to help U.S. companies accelerate the creation and commercialization
of highly innovative technologies with strong potential for generating broad-based economic
benefits for the nation. ATP received an appropriation of $192.5 million in FY 1998.

ATP relies on U.S. companies to conceive and propose technology development projects.
Companies submit proposals in response to announced competitions, of which there are two
types: (1) general competitions, open to proposals in all areas of technology, and (2) focused
program competitions, which support specific, predefined technology and business goals.
During FYs 1990 through 1993, ATP utilized only general competitions open to proposals in all
areas of technology as its sole investment mechanism. But during FYs 1994 through 1998,
most ATP funding was awarded through focused program competitions, although one general
competition was also held each year.

ATP introduced focused program competitions as a way of achieving more efficient use of funds
for specific technology areas. Specifically, by managing groups of projects that complement
each other, ATP hoped to make a stronger impact on technology and the economy. ATP solicits
white papers (proposed ideas) from companies and industry groups on technology areas for
consideration as the basis for focused programs. During FYs 1993 through 1998, 1,200 white
papers were received urging focused program competitions in various technologies. While it
can be costly and time-consuming for a company or industry group to sponsor a good white
paper, the potential benefits are extensive. Some focused programs, such as the Health Care
Information Infrastructure Program, have received over $140 million in matching funds from
ATP.

The focused program development process begins when ATP sees increasing interest from
industry in technical areas, as reflected by the white papers submitted (see Appendix I). This is
supplemented by phone calls, e-mails, presentations made at industry sponsored conferences,
and quality proposals submitted for consideration in general competitions. An ATP manager is
assigned to develop the proposed ideas into a plan for a focused program that addresses four key
criteria: (1) potential for U.S. economic benefit, (2) good technical ideas, (3) strong industry
commitment, and (4) the opportunity for ATP funds to make a difference. The ATP manager
continues to work with industry while developing the potential focused program, and gives
presentations to ATP colleagues at various junctures to obtain feedback. When the program
manager decides that a program is sufficiently well-developed, it is presented for consideration
to a group of external reviewers who assist ATP senior management in deciding which programs
to fund. The final decision is made by the ATP director.

For FY 1999, ATP officials decided to suspend focused program competitions in favor of
holding one general competition open to all areas of technology. They said that since ATP




                                               2
U.S. Department of Commerce                                                                          Audit Report No. STD-11113-0-0001
Office of Inspector General                                                                                                 March 2000

funding was reduced in FY 1996 1, they have been unable to support as many focused programs
as they would like. They also said that they believe ATP’s uncertain funding has discouraged
industry from submitting white papers that serve as the
basis for programs (see chart at the right). Also, ATP is
concerned that an industry may sometimes delay                    Original White Papers
                                                                        FY94 - FY98
performing research, knowing that ATP is considering




                                                                            Number of White Papers
                                                              500
establishing a focused program to support its                 400
                                                              300
technology. The decision to suspend focused                   200
programs for FY 1999 was made after we began this             100

audit. Nevertheless, we decided to complete our audit           0
                                                                   FY94 FY95    FY96       FY97  FY98
                                                                             Fiscal Year
because ATP has indicated that they may resume                            Number of White Papers
focused program competitions at a later date.


From FYs 1990 through 1997, ATP held 30 competitions, funding 352 projects involving
842 participants, including for-profit companies, universities, and nonprofit organizations. The
total amount of ATP awards during this period was approximately $1.2 billion. In FY 1998,
ATP made 23 awards totaling $50 million in general competitions and 56 awards totaling
$184.5 million in focused program competitions. For FY 1998, the last time focused program
competitions were held, eight of nine competitions involved focused programs. Over the past
five years, most of the ATP funds awarded were through focused program competitions (see
chart below).

                                             General vs. Focused Competitions
                                          Amount of New ATP Awards for FY 1994-1998*
                               $400,000,000

                               $300,000,000
                     Dollars




                               $200,000,000

                               $100,000,000

                                        $0
                                                94        95           96                                97       98
                                                                  Fiscal Year

                                                               Focused                               General




*      These amounts were based on information extracted from the NIST database. In its response to our draft
       report, NIST stated that the total amount for FY 94 was $309 million (with $224 million in focused
       competition) and for FY 95 was $414 million (with $376 million in focused competition).



       1
        In FY 1995, ATP’s appropriation was $340.5 million. The appropriation was reduced
to $221.0 million in FY 1996.

                                                         3
U.S. Department of Commerce                                     Audit Report No. STD-11113-0-0001
Office of Inspector General                                                            March 2000

PURPOSE AND SCOPE

The purpose of our audit was to determine (1) how focused programs are selected; (2) if ATP
adequately documents the basis for selecting each focused program; (3) whether and to what
extent ATP’s focused programs were selected based on its four selection criteria: (a) potential
for economic benefit, (b) good technical ideas, (c) strong industry commitment, and (d)
opportunity for funds to make a difference; and (4) the extent to which ATP utilizes outside
information and/or expert viewpoints in formulating and evaluating proposed focused programs.
We reviewed and evaluated documentation related to the selection of focused programs, and
interviewed current and former ATP management officials. We also contacted outside experts in
the areas of technology covered in focused programs to solicit their views on the quality of the
choices made by ATP.

We evaluated the adequacy of internal controls related to the selection of ATP focused programs
and reviewed ATP’s compliance with applicable laws, regulations, policies, and procedures.
We found that key steps in the ATP focused program selection process were not documented, as
described in detail in the body of the report. Our field work was conducted from October 1998
through December 1999 at NIST headquarters in Gaithersburg, Maryland.

We did not test the reliability of computer-generated data. Our use of computer-generated data
was confined to summary information provided by NIST in selecting our sample. Accordingly,
the information was not significant to the audit results, and we determined that testing its
reliability was unnecessary.

The audit was conducted in accordance with generally accepted government auditing standards
and was performed under the authority of the Inspector General Act of 1978, as amended, and
Department of Commerce Organization Order 10-13, dated May 22, 1980, as amended.

FINDING AND RECOMMENDATION

I.     External Reviewers Help with ATP Focused
       Process Selection Process, but Key Steps in the
       Selection Process Were Not Documented

ATP uses external reviewers to help evaluate proposed focused programs. Also, ATP has
established criteria for evaluating and selecting technology areas for focused programs from
those ideas submitted by industry, but key steps in the ATP focused program selection process
were not documented. As a result, we were unable to determine whether and to what extent the
focused programs were selected based on that criteria.




                                               4
U.S. Department of Commerce                                        Audit Report No. STD-11113-0-0001
Office of Inspector General                                                               March 2000

The Comptroller General’s guidance on internal controls in the federal government, Standards
for Internal Controls in the Federal Government, requires that all transactions and significant
events be clearly documented, and that the documentation be readily available for examination.
Documentation on the ATP focused program selection process should facilitate tracing the
entire selection process from the solicitation of white papers to the selection of specific focused
programs.

ATP officials told us that when focused programs first began in 1994, ATP program managers
who were responsible for developing program ideas from white papers presented their proposals
directly to the ATP and NIST directors. After hearing all proposals, the two directors would
decide jointly which focused programs to fund based on the four ATP criteria. Some of the
early focused programs that were selected from this process included Information Infrastructure
for Healthcare, Manufacturing Component Structures, and Component Based Software.

In 1997, ATP changed the selection process to obtain more and earlier feedback about program
ideas from individuals both inside and outside ATP. A process (see Appendix I) was introduced
whereby program managers would refine the content and appearance of their proposed focused
programs by making as many as three successive presentations to peers within ATP and NIST.
The process culminated in a fourth and final presentation to a group of external reviewers who
were chosen from government, business, and academia by the ATP director. The final
presentations were held twice during the year. ATP continued to use the four selection criteria
elements and to address each criteria in the final white papers. The revised process was adopted
and followed in FY 1997 and FY 1998.

Additionally, ATP concluded that the NIST director should not be directly involved in selecting
focused programs. This would provide a more optimal separation of duties and avoid the
potential appearance of favoritism in the focused program selection process. Hence, a change
was made whereby the ATP director makes the final decision about which programs will be
selected and funded.

Overall, such ATP changes have helped improve the selection process, but documentation of
key steps in the focused program selection process is needed. In the focused programs we
reviewed, it was not possible to trace the documentation from the program selected back to the
original white papers. One program manager that we interviewed was able to provide original
white papers. However, another program manager was unable to provide any documentation of
the original white papers used to prepare the final white paper. Instead, he relied on his memory
to highlight from a list of all white papers the specific white papers used. Because of the lack of
documentation, we were unable to determine whether all white papers received were given




                                                 5
U.S. Department of Commerce                                      Audit Report No. STD-11113-0-0001
Office of Inspector General                                                             March 2000

proper consideration. The program manager should have available those white papers used to
prepare the final white paper or, at a minimum, a list of the original white papers used. The
program manager should also document the reasons why an original white paper was not
considered.

ATP management uses individuals selected from outside ATP and NIST to help them select the
best focused program from among the ones proposed. We interviewed three external reviewers.
Two of these reviewers told us that they were asked to formally rank and provide a documented
assessment of the focused program criteria used to evaluate the focused program presentations.
However, the third reviewer stated that he was not required to formally rank or score the focused
program presentations. A formal ranking and documented assessment of the four selection
criteria elements is essential to provide assurance that ATP has made an effort to objectively
compare and evaluate proposed focused programs. Also, ATP program managers use the
documented assessment to revise their focused program presentation. For some focused
programs selected, ATP has only the original and the final white papers to justify its selection
with little or no documentation to show what choices were considered, and how the selection
was made. ATP should ensure that all external reviewers provide written ranking and
evaluations of focused programs under consideration.

Another part of the selection process not documented is the actual selection decision. The
decision to establish a focused program is made solely by the ATP director with no
documentation as to why one program was selected over another. We believe that ATP should
document its justification for selecting a focused program. This will improve the internal
controls and provide credibility to the overall selection process.

If ATP returns to focused program competitions, its focused program selection process should
be better documented. Since the establishment of a focused program can involve as much as
$100 million in grants for an industry, ATP’s selection process should offer assurance that
focused programs are objectively evaluated based on ATP criteria.




                                                6
U.S. Department of Commerce                                      Audit Report No. STD-11113-0-0001
Office of Inspector General                                                             March 2000

II.    Recommendation

We recommend that before ATP resumes program-specific competitions, the NIST director
should require that the ATP director:

1.     Ensure that program managers document the basis for preparing the final white paper;

2.     Ensure that all external reviewers provide written rankings and evaluations of focused
       programs under consideration; and

3.     Document her justification for selecting a focused program.

III.   NIST Response and OIG Comments

Recommendation 1

NIST Response:

NIST stated that the program manager provided documentation of the original white papers used
to prepare the final white paper and that all white papers received were appropriately considered.
NIST further commented that the focused program discussed in our report was planned for
funding three competitions as stated in the focused program solicitation booklet and that the
white papers that justified the first competition were sufficient for the following two
competitions.

OIG Comments:

We disagree with NIST’s comments. The program manager we interviewed specifically stated
that he did not believe documentation was an important issue. To him the important issue was
whether the research was having an economic or social impact. As noted in our draft report, the
program manager stated that he could not provide us with the original white papers received
from industry that were used to prepare the final white paper. Instead, he relied on his memory
to pick from a listing of the original white papers that we obtained from NIST. We also note
that NIST did not provide documentation to support its statement that the program manager had
provided documentation of the original white papers used. With regard to NIST’s comments
that the focused program was planned for three competitions, please note that our report did not
question NIST’s rationale for conducting three competitions for the same focused program. We
reaffirm our recommendation.




                                                7
U.S. Department of Commerce                                    Audit Report No. STD-11113-0-0001
Office of Inspector General                                                           March 2000

Recommendation 2

NIST Response:

NIST stated that pursuant to ATP established procedures, all external reviewers were required
and did provide written assessments/evaluations of the focused program presentations based on
the established focused program criteria. NIST also stated the ATP files contain the required
documentation, i.e., written assessments/evaluations, including one from the individual
identified by the OIG, and that these written assessments were critical in the decision making
process.

OIG Comments:

As stated in our draft report, the third external reviewer told us that he was not required to
formally rank or score the focused program presentations. NIST provided no documentation to
support its conclusion that formal ranking and scoring documents were prepared by this external
reviewer. We reaffirm our recommendation.

Recommendation 3

NIST Response:

NIST informed us that they had no comments on the third recommendation.

OIG Comments:

As no comments were provided, we reaffirm our recommendation.


Attachments

cc: Cita Furlani, Acting Director, Advanced Technology Program




                                              8
U.S. Department of Commerce                                                                 Audit Report No. STD-11113-0-0001
Office of Inspector General                                                                                        March 2000

                                                                                                                         APPENDIX I
                                                                                                                         (Page 1 of 2)

                    ATP FOCUSED PROGRAM SELECTION PROCESS


                          New ideas are submitted via:

                          * white papers




                                       New
                                      Program
                                       Idea
                                                                 Existing
                                                                 Focused
                                                                 Programs
                                  Program
                                  Manager
                                  Appointed



                                                                            a forum where industry representatives and
                                                                            others can debate the issues and work
                                    Public                                  toward proposing an appropriate program
                                   Workshop                                 scope




                     No
                             Sufficient Public
                                Interest?        Revise

                                Yes
                            Draft Program
                            Requirements




                            Broad
                            Dissemination




                    No          Industry
                            supports scope of
                               program?          Revise


                                Yes

                            Internal Review
                                                                            3 presentations -- each one more formal
                            Feedback




                    No            Internal
                             Review Feedback
                               Favorable?           Revise

                                                             From 2 on
                                 Yes                          page 2


                                  To 1 on
                                  page 2




                                                             9
U.S. Department of Commerce                                                Audit Report No. STD-11113-0-0001
Office of Inspector General                                                                       March 2000

                                                                                              APPENDIX I
                                                                                              (Page 2 of 2)



                              From 1 on
                               page 1




                          External Review                 March/August




                   No         ATP Director
                         decides which become            To 2 on
                           focused program      Revise    page 1



                               Yes


                           Final White Paper




                        Competition Announced              Commerce
                                                          Business Daily




                              Competition




                           Does not meet ATP Criteria




                                                               10
